Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     PALMETTO GBA, LLC,
    INAPPROPRIATELY PAID
 HOSPITALS’ MEDICARE CLAIMS
  SUBJECT TO THE POSTACUTE
   CARE TRANSFER POLICY IN
        JURISDICTION 1

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        May 2013
                                                      A-09-12-02038
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Palmetto GBA inappropriately paid Medicare claims subject to the postacute care
 transfer policy, resulting in overpayments to 188 hospitals totaling $10.8 million over
 4 years. The hospitals improperly coded claims as discharges to home rather than as
 transfers to postacute care.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with the postacute care transfer policy. These hospitals transferred
inpatients to certain postacute care settings but claimed the higher reimbursement associated with
discharges to home. In those reports, we recommended that the Centers for Medicare
& Medicaid Services (CMS) provide education to make hospitals aware of the transfer policy
and require Medicare contractors to implement system edits to prevent and detect postacute care
transfers that are miscoded as discharges. CMS generally concurred with our recommendations
and initiated collection efforts on the overpayments that we identified. In addition, CMS
implemented system edits to identify improperly coded hospital claims. However, in recent OIG
reviews of hospitals’ compliance with Medicare billing requirements in Jurisdiction 1 (which
consists of three States and three territories), we identified Medicare overpayments to hospitals
that did not comply with the postacute care transfer policy.

The objective of this review was to determine whether Palmetto GBA, LLC (Palmetto), the
Medicare contractor for Jurisdiction 1, appropriately paid hospitals’ Medicare claims subject to
the postacute care transfer policy.

BACKGROUND

Medicare’s postacute care transfer policy distinguishes between discharges and transfers of
beneficiaries from hospitals under the inpatient prospective payment system. Consistent with the
policy, Medicare makes full Medicare Severity Diagnosis-Related Group (MS-DRG) payments
to hospitals that discharge inpatients to their homes. In contrast, for specified MS-DRGs,
Medicare pays hospitals that transfer inpatients to certain postacute care settings, such as home
health care and skilled nursing facilities, a per diem rate for each day of the stay, not to exceed
the full MS-DRG payment for a discharge. Typically, the full MS-DRG payment is higher than
the per diem payment dependent upon the patient’s length of stay in the hospital. CMS requires
hospitals to include a two-digit patient discharge status code on all inpatient claims to identify a
beneficiary’s status at the conclusion of an inpatient stay. Whether Medicare pays for a
discharge or a transfer depends on the patient discharge status code indicated on the inpatient
claim.

In 2004, CMS implemented Common Working File (CWF) edits to identify transfers improperly
coded as discharges. Specifically, if an inpatient claim is processed and paid before a
corresponding postacute care claim is processed, postpayment edits for inpatient claims are
designed to generate an “alert” with associated detail (trailer) information that identifies
overpayments on the inpatient claim.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)    i
Our review covered $31,447,024 in Medicare Part A payments for 1,656 claims with specified
MS-DRGs in which beneficiaries were transferred to postacute care and that had dates of service
ending in calendar years (CYs) 2008 through 2011. These claims were submitted by 188 short-
term acute-care hospitals in Jurisdiction 1.

WHAT WE FOUND

Palmetto inappropriately paid 1,656 Medicare claims subject to the postacute care transfer policy
during CYs 2008 through 2011. The hospitals used incorrect patient discharge status codes on
their claims, indicating that the patients were discharged to home rather than transferred to
postacute care. Of these claims, 97 percent were followed by claims for home health services,
and 3 percent were followed by claims for services in other postacute care settings. Because the
postpayment edits were not working properly, Palmetto did not receive the CWF edit alerts or
associated trailer information notifying it that the miscoded claims required payment
adjustments. Consequently, Palmetto overpaid the hospitals by $10,836,130.

As a result of our review, Palmetto notified the CWF maintenance contractor that it was not
receiving the edit alerts or associated trailer information.

WHAT WE RECOMMEND

We recommend that Palmetto:

    •   recover $10,836,130 in identified overpayments;

    •   educate Jurisdiction 1 hospitals on the importance of reporting the correct patient
        discharge status codes on transfer claims, especially when home health services have
        been ordered; and

    •   continue working with the CWF maintenance contractor to ensure that it receives the
        CWF edit alerts and associated trailer information.

PALMETTO COMMENTS

In written comments on our draft report, Palmetto provided information on actions that it had
taken to address our recommendations.




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare’s Inpatient Prospective Payment System ........................................... 1
                 Postacute Care Transfer Policy .......................................................................... 1
                 Medicare Contractors ......................................................................................... 2
                 Medicare Claims Processing Systems ............................................................... 2
                 Palmetto GBA, LLC .......................................................................................... 3

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Federal Requirements .................................................................................................... 4

           Hospitals Improperly Coded Claims as Discharges to Home
            Rather Than as Transfers to Postacute Care ............................................................... 4

           Palmetto Did Not Receive Edit Alerts Notifying It That Miscoded Claims
            Required Payment Adjustments.................................................................................. 5

RECOMMENDATIONS ........................................................................................................... 5

PALMETTO COMMENTS....................................................................................................... 5

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 6

           B: Related Office of Inspector General Reports ........................................................... 8

           C: Palmetto Comments ................................................................................................. 9




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)                                                   iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with the postacute care transfer policy. These hospitals transferred
inpatients to certain postacute care settings but claimed the higher reimbursement associated with
discharges to home. In those reports, we recommended that the Centers for Medicare
& Medicaid Services (CMS) provide education to make hospitals aware of the transfer policy
and require Medicare contractors to implement system edits to prevent and detect postacute care
transfers that are miscoded as discharges. CMS generally concurred with our recommendations
and initiated collection efforts on the overpayments that we identified. In addition, CMS
implemented system edits to identify improperly coded hospital claims. However, in recent OIG
reviews of hospitals’ compliance with Medicare billing requirements in Jurisdiction 1 (which
consists of three States and three territories), we identified Medicare overpayments to hospitals
that did not comply with the postacute care transfer policy.

OBJECTIVE

Our objective was to determine whether Palmetto GBA, LLC (Palmetto), the Medicare
contractor for Jurisdiction 1, appropriately paid hospitals’ Medicare claims subject to the
postacute care transfer policy.

BACKGROUND

Medicare’s Inpatient Prospective Payment System

The Social Security Act (the Act) established the inpatient prospective payment system (IPPS)
for inpatient hospital services provided to Medicare beneficiaries (§§ 1886(d) and (g)). Under
the IPPS, CMS pays hospital costs at predetermined rates for patient discharges. A hospital
inpatient is considered discharged from a hospital when the patient is formally released from or
dies in the hospital.

CMS’s payment rates vary according to the Medicare Severity Diagnosis-Related Group
(MS-DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The MS-DRG payment is, with certain exceptions, intended to be payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

Postacute Care Transfer Policy

Section 4407 of the Balanced Budget Act of 1997, P.L. No. 105-33, added § 1886(d)(5)(J) to the
Act to establish the Medicare postacute care transfer policy. This provision and its implementing
regulations (42 CFR § 412.4(c)) state that a postacute care transfer occurs when a beneficiary
whose hospital stay was classified within specified MS-DRGs is released from an IPPS hospital
in one of the following situations:




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)    1
    •   The beneficiary is admitted on the same day to a hospital or hospital unit that is not
        reimbursed under the IPPS.

    •   The beneficiary is admitted on the same day to a skilled nursing facility.

    •   The beneficiary receives home health services from a home health agency, the services
        are related to the condition or diagnosis for which the beneficiary received inpatient
        hospital services, and the services are provided within 3 days of the beneficiary’s hospital
        discharge date.

Medicare makes the full MS-DRG payment to a hospital that discharges an inpatient to home. In
contrast, Medicare pays a hospital that transfers an inpatient to postacute care a per diem rate for
each day of the stay, not to exceed the full MS-DRG payment that would have been made if the
inpatient had been discharged to home. Typically, the full MS-DRG payment is higher than the
per diem payment dependent upon the patient’s length of stay in the hospital.

CMS requires hospitals to include a two-digit patient discharge status code on all inpatient
claims to identify a beneficiary’s status at the conclusion of an inpatient stay. Whether Medicare
pays for a discharge or a transfer depends on the patient discharge status code indicated on the
inpatient claim.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for hospital services. The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse.

Medicare Claims Processing Systems

Medicare contractors use the Fiscal Intermediary Standard System (FISS) to process inpatient
and outpatient claims submitted by hospitals in their designated jurisdictions. After being
processed through the FISS, and before payment, all Medicare contractor claims are sent to
CMS’s Common Working File (CWF) system for verification, validation, and payment
authorization. Once the CWF has processed a claim, it electronically transmits a “trailer record”
to the contractor. The trailer record includes information regarding potential errors on the claim.
Both the FISS and CWF contain edits to prevent and detect overpayments.

On January 1, 2004, CMS implemented CWF edits to identify improperly coded hospital claims
and instructed the Medicare contractors to automatically cancel hospital claims that had incorrect
patient discharge status codes. On March 15, 2004, CMS revised these edits and established new
criteria for an automatic claim cancellation. Specifically, if an inpatient claim is processed and
paid before a corresponding postacute care claim is processed, postpayment edits for inpatient
claims are designed to generate an “alert” with associated trailer information that identifies
overpayments on the inpatient claim. However, if the postacute care claim is processed and paid




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)    2
before the inpatient claim is processed, prepayment edits for inpatient claims are designed to
reject the incoming inpatient claim.

Palmetto GBA, LLC

In September 2008, Palmetto GBA, LLC (Palmetto), assumed full responsibility as the Medicare
contractor for Jurisdiction 1 hospitals in three States (California, Hawaii, and Nevada) and three
territories (American Samoa, Guam, and Northern Mariana Islands). 1

HOW WE CONDUCTED THIS REVIEW

Our review covered $31,447,024 in Medicare Part A payments for 1,656 claims with specified
MS-DRGs in which beneficiaries were transferred to postacute care and that had dates of service
ending in calendar years (CYs) 2008 through 2011. These claims were submitted by 188 short-
term acute-care hospitals in Jurisdiction 1.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute transfer policy that
were improperly coded as discharges to home.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains a list
of related OIG reports on hospitals’ submissions of Medicare claims subject to the postacute
transfer policy.

                                                    FINDINGS

Palmetto inappropriately paid 1,656 Medicare claims subject to the postacute care transfer policy
during CYs 2008 through 2011. The hospitals used incorrect patient discharge status codes on
their claims, indicating that the patients were discharged to home rather than transferred to
postacute care. Of these claims, 97 percent were followed by claims for home health services,
and 3 percent were followed by claims for services in other postacute care settings. Because the
postpayment edits were not working properly, Palmetto did not receive the CWF edit alerts or
associated trailer information notifying it that the miscoded claims required payment
adjustments. Consequently, Palmetto overpaid the hospitals by $10,836,130.


1
  Before September 2008, providers in Jurisdiction 1 processed Medicare claims through separate fiscal
intermediaries. In September 2008, Palmetto became fully responsible as the Medicare contractor for these States
and territories and is therefore responsible for collecting any overpayments and resolving the issues related to this
audit.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)                         3
FEDERAL REQUIREMENTS

Federal regulations state that for a beneficiary whose hospital stay was classified within one of
the specified MS-DRGs, a discharge from an IPPS hospital to a qualifying postacute care setting
is considered a transfer (42 CFR § 412.4(c)). The qualifying postacute care settings are
(1) hospitals or hospital units that are not reimbursed under the IPPS, 2 (2) skilled nursing
facilities, and (3) home health care if services are provided within 3 days of the discharge.

CMS requires hospitals to include patient discharge status codes on all inpatient claims. 3 When
a hospital discharges a beneficiary to home, patient discharge status code 01 should be used.
However, when a beneficiary is transferred to a setting subject to the postacute care transfer
policy, a different discharge status code should be used, depending on the type of postacute care
setting. For example, patient discharge status code 03 should be used when the beneficiary is
transferred to a skilled nursing facility, and patient discharge status code 06 should be used when
a beneficiary is transferred to home for home health services. 4 The Federal Register emphasizes
that the hospital is responsible for coding the bill based on its discharge plan for the patient. If
the hospital subsequently determines that postacute care was provided, it is responsible for either
coding the original bill as a transfer or submitting an adjusted claim. 5

The Medicare Financial Management Manual, Pub. 100-06, chapter 7, § 10, states that the
contractor must administer the Medicare program efficiently and economically and refers to the
Medicare contractors’ Statement of Work, which further states that the contractor must establish
and maintain efficient and effective internal controls.

HOSPITALS IMPROPERLY CODED CLAIMS AS DISCHARGES TO HOME
RATHER THAN AS TRANSFERS TO POSTACUTE CARE

Palmetto inappropriately paid 1,656 Medicare claims subject to the postacute care transfer policy
during CYs 2008 through 2011. Hospitals improperly coded these claims as discharges to home
rather than as transfers to postacute care by using the incorrect patient discharge status codes. Of
these claims:

      •    1,609 claims were followed by claims for home health services provided within 3 days of
           the discharge date, resulting in $10,472,896 of overpayments to the discharging hospitals;

2
 Section 1886(d)(5)(J) of the Act refers to hospitals and hospital units that are not reimbursed under the IPPS as
“not subsection (d) hospitals.” Section 1886(d)(1)(B) of the Act identifies the hospitals and hospital units that are
excluded from the term “subsection (d) hospitals,” such as psychiatric hospitals and units, rehabilitation hospitals
and units, children’s hospitals, long-term-care hospitals, and cancer hospitals.
3
    Medicare Claims Processing Manual, Pub. No. 100-04, chapter 25, § 75.2.
4
 Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, § 40.2.4; Program Memorandum, Transmittal
No. A-01-39, Mar. 22, 2001, Change Request 1565; Medicare Learning Network’s MLN Matters Number: SE0801;
and MLN Matters Number: MM4046, Related Change Request 4046.
5
    63 Fed. Reg. 40954, 40980 (July 31, 1998). See also MLN Matters Number: SE0408.



Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)                         4
    •   34 claims were followed by claims for skilled nursing services provided on the same day
        as the discharge date, resulting in $234,787 of overpayments to the discharging hospitals;
        and

    •   13 claims were followed by claims for admissions to non-IPPS hospitals or hospital units
        on the same day as the discharge date, resulting in $128,447 of overpayments to the
        discharging hospitals.

As a result, Palmetto overpaid 188 hospitals by $10,836,130 for CYs 2008 through 2011. The
overpayments represented the difference between the full MS-DRG payments and the per diem
rates that should have been applied.

PALMETTO DID NOT RECEIVE EDIT ALERTS NOTIFYING IT THAT
MISCODED CLAIMS REQUIRED PAYMENT ADJUSTMENTS

Because the postpayment edits for inpatient claims were not working properly, Palmetto did not
receive the CWF edit alerts or associated trailer information notifying it that the miscoded claims
required payment adjustments. Therefore, Palmetto overpaid 188 hospitals in Jurisdiction 1
during CYs 2008 through 2011 for claims that did not comply with the postacute care transfer
policy.

As a result of our review, Palmetto notified the CWF maintenance contractor that Palmetto was
not receiving the edit alerts or associated trailer information.

                                        RECOMMENDATIONS

We recommend that Palmetto:

    •   recover $10,836,130 in identified overpayments;

    •   educate Jurisdiction 1 hospitals on the importance of reporting the correct patient
        discharge status codes on transfer claims, especially when home health services have
        been ordered; and

    •   continue working with the CWF maintenance contractor to ensure that it receives the
        CWF edit alerts and associated trailer information.

                                         PALMETTO COMMENTS

In written comments on our draft report, Palmetto provided information on actions that it had
taken to address our recommendations. Palmetto’s comments are included in their entirety as
Appendix C.




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)   5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered $31,447,024 in Medicare Part A payments for 1,656 claims with specified
MS-DRGs in which beneficiaries were transferred to postacute care and that had dates of service
ending in CYs 2008 through 2011. These claims were submitted by 188 short-term acute-care
hospitals in Jurisdiction 1.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute transfer policy that
were improperly coded as discharges to home. We limited our review of Palmetto’s internal
controls to those applicable to implementation of Medicare’s postacute care transfer policy. We
did not evaluate the medical records of the IPPS hospitals from which the beneficiaries in our
review were discharged to determine whether there was a written plan of care for the provision
of home health services.

We conducted our fieldwork at Palmetto in Columbia, South Carolina, from March to
October 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History File to identify inpatient claims with specified
        MS-DRGs, during our audit period, for beneficiaries who received certain postacute care
        services after inpatient stays;

    •   used computer matching, data mining, and data analysis techniques to identify for review
        1,769 claims coded as discharges to home;

    •   sent the 1,769 claims to Palmetto officials to verify whether the claims were canceled,
        adjusted, or miscoded and to determine the cause of the miscoding;

    •   excluded from our review 113 claims that had been canceled or adjusted before our
        review;

    •   interviewed and reviewed documentation provided by Palmetto officials to understand
        how they processed claims and to determine why Palmetto made payments for the
        miscoded claims;




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)   6
    •   used CMS’s Pricer program to reprice each improperly paid claim to determine the
        transfer payment amount, compared the repriced payment with the actual payment, and
        determined the value of the overpayment; and

    •   discussed the results of our review with Palmetto officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)   7
          APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                    Report Title                                          Report Number    Date Issued
Medicare Compliance Review of Hoag Memorial                               A-09-12-02012     12/10/12
Hospital Presbyterian for Calendar Years 2008
Through 2011 6

Medicare Overpaid Some Fiscal Year 2008 and 2009                           A-04-11-00078     04/24/12
Jurisdiction 4 Inpatient Rehabilitation Facility Claims
That Did Not Comply With Transfer Regulations

Medicare Compliance Review of John Muir Medical                            A-09-11-02060     02/23/12
Center, Walnut Creek, for Calendar Years 2008
Through 20106

Medicare Compliance Review of University of                                A-09-11-02055     02/23/12
California, San Diego, Medical Center for Calendar
Years 2008 and 20096

Medicare Compliance Review of University of                                A-09-11-02034     09/21/11
California, San Francisco, Medical Center for
Calendar Years 2008 and 20096

Hospital Compliance With Medicare’s Postacute Care                         A-04-07-03035     02/27/09
Transfer Policy During Fiscal Years 2003 Through
2005




6
    The postacute care transfer issue was only one of the findings in this report.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 1 (A-09-12-02038)          8
                                      APPEN DIX C: PALMETTO COMMENTS 




                                                                                                        ~0
                                                                                              PALMETTO            GBA~
            PO OOX 100134 I COLUMBIA. SC 29202·3134 l PALME rTOOBA COM I 1$0 9001              A CELERlAN GROlJF> COMPANY


            W. JOE JOHNSON
            Ptes;deiltaM Cloel Oper•lm9 OntUr


            April I 5, 2013



            Lori A. Ahlstrand
            Onice of Inspector General
            Office ofAudit Services, Region IX
            90-71h Street, Suite 3-650
            San Francisco. CA 94103

            Reference: Draft Report No. A-09-12-02038

            Dear Ms . Ahlstrand:

            This letter is in response to the recent Office of Inspector General (OIG) report entitled
            " Po/mello GBA, LLC, Inappropriately Paid Hospitals· Medicare Claims Subject to the Postacute
            Care Transfer Policy in Jurisdiction 1. We appreciate the feedback your review provided and
            are committed to continuously improving our service to the Medicare beneficiaries and providers
            we serve.

            During the audit period CYs 2008 through 20 II hospitals used incorrect patient discharge status
            codes on their claims, indicating that the patients were discharged to home rather than transferred
            to postacute care.

            Duri ng the audit period approximately 1,656 claims were selected in which:

                        (I) 	           I ,609 claims were fo llowed by claims for home health services provided
                                        within 3 days of the discharge date, resulting in $10,472,896 ofoverpayments
                                        to the discharging hospi tals.

                        (2) 	           34 claims were followed by claims for skilled nursing services provided on
                                        the same day as the discharge date. resulting in $234,787 of overpayments to
                                        the discharging hospitals.

                        (3)             13 claims were fo ll owed by claims for admissions to non-IPPS hospitals or
                                        hospital units on the same day as the discharge date, res ulting in $ 128,447 of
                                        overpayments to the discharging hospitals.

            In several cases, neither the Fiscal Intennediary Standard System (FISS) nor lhe Common
            Working File (CWF) had edits working properly. Palmetto did not receive the CWF edit alerts
            or associated trailer information notifying it that that the miscodcd claims required payment
            adjustments. Therefore, Palmetto GBA overpaid 188 hospitals in Jurisdiction 1 during this time
            period.




MedicCO'e Claims Subject to the Postacute Cw·e Tran.sjer Policy in Jurisdiction 1 (A-09-12-02038)                           9
            Lori A. Ahlstrand
            Aprill5,2013
            Page 2



            As a resu lt the following was reconm1ended by your office:

                • 	 Recover the $10,836,130 identified overpayments.

                    Palmetto GBA Response:

                    All claims identified in the audit were adjusted e ither by the provider or by Palmetto
                    GBA.

                • 	 Educate Jurisdiction I. hospitals on the importance of reporting th e correct patient
                    discharge s tatus codes o transfer claims, especially when hom e health services have
                    been order; and

                    Palmetto GBA Response:

                    Palmetto GBA conducted a webi nar on April LO, 2013 on Part A Inpatient PPS T ransfers
                    and Repeat Adm issions.

                • 	 Contin ue working with the CWF maintenance contractor to ensure hta it receives
                    t he CWF ed it alerts and associated trailer information.

                    Palmetto GBA Response:

                    Palmetto GBA continues coordination with FISS and C WF to determine the non-transfer
                    of information as it pertains to the alerts. Recent examples were supp lied by CWf and
                    sent to the FISS maintainer to identify problems. Results pending.


            Thank you for providing Palmetto GBA wi th the opportunity to offer feedback regarding your
            review. If you have any questions, please do not hesitate to contact me.




            cc: 	   Amy Drake, COR, CMS
                    Sandra Brown, CMS
                    Mike Bartow, Palmetto GBA
                    Caro l Sutton, Palmetto GBA




Medicare Clai ms Subject to th e Postacute Cw·e Tran.sjer Policy in Jurisdiction 1 (A-09-12-02038)            10
